U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

February 26, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Thomas Traficante v. United States, No. 20-6808
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 29,
2020. The government’s response is now due, after one extension, on March 10, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 9, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-6808
TRAFICANTE, THOMAS
USA

MICHELLE ANDERSON BARTH
LAW OFFICE OF MICHELLE ANDERSON
BARTH
PO BOX 4240
BURLINGTON, VT 05406
619-894-7817
ANDERSONBARTHLAW@GMAIL.COM

